           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



 INDIVIDUAL REPRESENTATIVE PAYEES
               FOR THE
  SOCIAL SECURITY ADMINISTRATION
        IN THE DENVER REGION


     March 2005   A-07-05-15055



   EVALUATION
     REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                 SOCIAL SECURITY
MEMORANDUM

Date:   March 21, 2005                                                                        Refer To:

To:     James C. Everett
        Regional Commissioner
         Denver

From:   Inspector General

Subject: Individual Representative Payees for the Social Security Administration in the Denver Region
        (A-07-05-15055)


        OBJECTIVE
        Our objective was to confirm that beneficiaries in the care of representative payees existed;
        and, through personal observation and interviews, to determine whether the beneficiaries'
        food, clothing and shelter needs were being met.

        BACKGROUND
        Some individuals cannot manage or direct the management of their finances because of their
        youth or mental and/or physical impairments. Congress granted the Social Security
        Administration (SSA) the authority to appoint representative payees to receive and manage
        these beneficiaries’ benefit payments.1 A representative payee may be an individual or an
        organization. SSA selects representative payees for Old-Age, Survivors and Disability
        Insurance beneficiaries and Supplemental Security Income recipients when representative
        payments would serve the individual’s interests.

        SSA’s primary concern is to select the payee who will best serve the beneficiary’s interest; and
        preference is normally given to a beneficiary’s parent, legal guardian, spouse or other relative.2
        SSA considers payments to a representative payee to have been used for the benefit of the
        beneficiary if they were spent on the beneficiary’s current maintenance—which includes the
        costs incurred in “…obtaining food, shelter, clothing, medical care, and personal comfort
        items.”3



        1
            The Social Security Act §§ 205(j)(1)(A) and 1631(a)(2)(A)(ii); 42 U.S.C. §§ 405(j)(1)(A) and 1383(a)(2)(A)(ii).
        2
            20 C.F.R. §§ 404.2021 and 416.621.
        3
            20 C.F.R. §§ 404.2040(a) and 416.640(a).
Page 2 – James C. Everett

We conducted a nation-wide review of individual representative payees serving 14 or fewer
beneficiaries (see Appendix A for details). There are approximately 4.3 million of these types
of representative payees who serve approximately 5.5 million beneficiaries. To provide
statistically valid nation-wide projections, we selected 275 individual representative payees for
review, of which 7 were in the Denver Region. These seven representative payees received
and managed approximately $4,828 in monthly benefits for eight beneficiaries.

RESULTS OF REVIEW
We confirmed the existence of the eight beneficiaries in the care of seven representative
payees in the Denver Region; and, through personal observation and interviews, we found that
the beneficiaries’ food, clothing, and shelter needs were being met.4 For six of the eight
beneficiaries, nothing came to our attention that would lead us to believe that the
representative payees did not use the Social Security benefits received for the beneficiaries’
needs. However, we found the representative payee for two beneficiaries did not perform her
duties.

This representative payee turned over the full amount of the Social Security benefits to the
beneficiaries without instruction on how to use the funds. SSA policy defines this
representative payee as a conduit payee.5 SSA policy states that conduit payees do not
exercise control over the funds and cannot accurately account for how the funds are spent.6 In
conduit payee situations, SSA is required to determine whether a new payee is needed or the
beneficiary is capable of receiving direct payment.7

The conduit payee served as representative payee for two beneficiaries who are her nieces.
When originally assigned as representative payee, the beneficiaries resided at her residence.
However, at the time of our interviews, the beneficiaries no longer lived with the representative
payee.

•     One beneficiary, age 19, moved to an apartment 9 weeks before our interview. The
      representative payee met the beneficiary at the bank each month, withdrew the monthly
      SSA benefit payment, and provided the funds to the beneficiary.8 The representative
      payee did not provide the beneficiary with direction or instruction on how to use the funds.
      We interviewed the beneficiary at her apartment, and it appeared she independently
      managed the SSA benefit payments to meet her own food, clothing, and shelter needs.



4
 Of the seven representative payees, three payees were the beneficiaries’ parent, two were the beneficiaries’
grandparent, and two were the beneficiaries’ aunt.
5
    SSA POMS, GN 00605.066B.2.
6
    SSA POMS, GN 00605.067D.
7
    SSA POMS, GN 00605.066A and GN 00605.067.
8
    The beneficiary received a monthly SSA benefit payment of $564.
Page 3 – James C. Everett

•     The other beneficiary, age 16, moved from the representative payee’s residence to an
      apartment a few days before our interview. Based on our interview, it appeared the
      beneficiary’s food, clothing and shelter needs were met while she resided at the
      representative payee’s residence. However, during our September 7, 2004 interview, the
      representative payee stated that she planned to provide the beneficiary with her SSA
      benefit payment each month and let the beneficiary decide how the funds are spent since
      the beneficiary no longer lived in her residence.9

      On December 12, 2004, we contacted the representative payee and asked her how she
      managed the beneficiary’s SSA benefit payments she received after our initial interview.
      The representative payee stated she provided the beneficiary with the SSA benefit
      payment amount and let the beneficiary decide how the funds are spent.

We notified the Denver Regional Office of the circumstances, and it instructed the Denver,
Colorado, District Office to determine whether a change in representative payee was
warranted. On December 28, 2004, the Denver Regional Office informed us that it determined
the beneficiaries were capable of managing their own funds and had made them their own
payees. The Regional Office also informed us that it was investigating a potential misuse by
the former representative payee.10

CONCLUSION
For six of the eight beneficiaries in our review, nothing came to our attention that would lead us
to believe the representative payees did not use the Social Security benefits for the
beneficiaries’ needs. However, we found the representative payee for the other two
beneficiaries did not perform her duties because she turned over the full amount of the benefits
to the beneficiaries without instruction on how to use the funds. We reported the
circumstances of these two beneficiaries to the Denver Regional Office, and it determined that
the beneficiaries were capable to manage their own funds. Since corrective action was taken,
we are not making any recommendations.

AGENCY COMMENTS
In its comments to our draft report, SSA agreed with the results of our review. See Appendix C
for the full text of SSA’s comments.




                                                 S
                                                 Patrick P. O’Carroll, Jr.

9
    The beneficiary received a monthly SSA benefit payment of $564.
10
  See Appendix C for the results of the Regional Office’s investigation of misuse by the former representative
payee.
                                    Appendices
APPENDIX A –Scope and Methodology

APPENDIX B – Sampling Methodology

APPENDIX C – Agency Comments

APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                                                  Appendix A

Scope and Methodology
Our population included all individual representative payees within the contiguous
48 States serving 14 or fewer beneficiaries as of May 20, 2004. To accomplish our
objective, we:
• Reviewed the Social Security Administration’s (SSA) policies and procedures for
   monitoring representative payees and their responsibilities for the beneficiaries in
   their care.
• Obtained a data extract of representative payees from the Representative Payee
   System as of May 2004 meeting our selection criteria (see Appendix B).
• Selected a random sample of 275 representative payees nation-wide. We are
   issuing a separate report on the nation-wide results, as well as separate reports for
   each of the 10 SSA Regions.1

Seven of the 275 representative payees were in the Denver Region. For these seven
representative payees, we:
• verified the identities of seven representative payees and the eight beneficiaries they
   served;
• interviewed seven representative payees;
• interviewed eight beneficiaries;
• visited and observed the living conditions of eight beneficiaries; and
• reviewed the Master Beneficiary Record, Supplemental Security Income Display
   System, Numident, Master Earnings File, Representative Payee System, and
   Prisoner Update Processing System records for each individual to confirm personal
   information and identify discrepancies.

We performed our review in Colorado, Wyoming, and Utah and the Office of Audit in
Kansas City, Missouri, from July to November 2004. We conducted our review in
accordance with Quality Standards for Inspections issued by the President’s Council on
Integrity and Efficiency.
1
  SSA OIG, Nation-Wide Survey of Individual Representative Payees for the Social Security
Administration (A-13-05-25006), Individual Representative Payees for the Social Security Administration
in the Boston Region (A-01-05-15048), Individual Representative Payees for the Social Security
Administration in the New York Region (A-02-05-15049), Individual Representative Payees for the Social
Security Administration in the Philadelphia Region (A-14-05-15050), Individual Representative Payees
for the Social Security Administration in the Atlanta Region (A-13-05-15051), Individual Representative
Payees for the Social Security Administration in the Chicago Region (A-05-05-15052), Individual
Representative Payees for the Social Security Administration in the Dallas Region (A-06-05-15053),
Individual Representative Payees for the Social Security Administration in the Kansas City Region
(A-07-05-15054), Individual Representative Payees for the Social Security Administration in the Denver
Region (A-07-05-15055), Individual Representative Payees for the Social Security Administration in the
San Francisco Region (A-09-05-15056), and Individual Representative Payees for the Social Security
Administration in the Seattle Region (A-09-05-15057).
                                                                     Appendix B

Sampling Methodology
To identify the nation-wide population, we obtained a data extract from the Social
Security Administration’s Representative Payee System of all individual representative
payees who had 14 or fewer beneficiaries in their care as of May 20, 2004. This
population was 5,380,635 representative payees who served 6,818,696 beneficiaries.

From this population, we excluded representative payees who had any of the following
characteristics:

•   resided outside of the 48 contiguous States;
•   served as their own representative payee as reflected in the Representative Payee
    System;
•   had only beneficiaries who were in noncurrent pay status;
•   had an invalid state code or military address; or
•   managed total funds of $50 or less each month.

This reduced our sample population to 4,306,779 representative payees with
5,520,303 beneficiaries. From this population, we randomly selected
275 representative payees for review. Twenty-five additional representative payees
were chosen to serve as replacements, as needed.

Accordingly, our review of the Denver Region consisted of seven representative
payees. Our findings in the Denver Region will be included in a national report where
statistical projections will be made.
                  Appendix C

Agency Comments
                                       SOCIAL SECURITY


MEMORANDUM


Date:         February 28, 2005

To:           Inspector General

From:         Regional Commissioner

Subject:      Individual Representative Payees for the Social Security Administration in the Denver
              Region (A-07-05-15055)--REPLY


           Thank you for the opportunity to review the OIG Draft Report on Individual Rep Payee
           Reviews for the Denver Region. We agree with the results of the review.

           In December 2004, the Denver District office interviewed each of the two recipients who
           had the same conduit payee. The office determined that each should be made her own
           payee.

           Development was conducted with the payee regarding a dedicated account. On
           February 9, 2005 the Denver District Office prepared a Special Determination that the
           payee did misuse funds in the amount of $1,143.00 for the period December 1, 2004
           through January 1, 2005. The office sent a letter to the payee requesting restitution for
           that amount. In addition, the office determined that the representative misapplied
           $4,523 for the period October 1, 2003 through November 30, 2004. The office issued a
           letter on February 9, 2005 requesting repayment of this amount. The office will continue
           to pursue restitution of these amounts.

           Please let me know if you have any concerns. You may contact Renee Booker, RSI
           Programs, at 303-844-3481 if you need clarification on the payee issues.
                                                                       Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Mark Bailey, Director, Central Audit Division (816) 936-5591

   Ron Bussell, Audit Manager (816) 936-5577

Acknowledgments

In addition to those named above:

   Carol Cockrell, Program Analyst

   Wanda Craig, Auditor

   Kim Beauchamp, Writer-Editor

   Brennan Kraje, Statistician


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-07-05-15055.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
